U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 26, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Valero Energy Corp. et al. v. Environmental Protection Agency, No. 19-83 5
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 30,
2019. The government's response is now due, after one extension, on March 4, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 3, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-083 5
VALERO ENERGY CORPORATION, ET AL.
EPA

MEGAN H. BERGE
BAKER BOTTS L.L.P.
THE WARNER
1299 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-639-1308
AMY C. CHAI
THOMAS J. WARD
NATIONAL ASSOCIATION
OF HOME BUILDERS
1201 15TH STREET, N.W.
WASHINGTON, DC 20005
202-866-8200
ACHAI@NAHB.ORG
SAMARA L. KLiNE
BAKER BOTTS L.L.P.
2001 ROSS AVENUE
DALLAS, TX 75201
214-953-6825
RICHARD MOSKOWITZ
AMERICAN FUEL & PETROCHEMICAL
MANUFACTURERS
1800 M STREET, NW
SUITE 900 NORTH
WASHINGTON, DC 20036
202-457-0480

BRITTANY M. PEMBERTON
BRACE WELL LLP
2001 M STREET NW
SUITE 900
WASHINGTON, DC 20036
202-828-1708
CLARA M. POFFENBERGER
ENVIRONMENTAL LAW AND POLICY, LLC
2933 FAIRHILL ROAD
FAIRFAX, VA 22031
703-231-5251
EVAN A. YOUNG
BAKER BOTTS LLP
98 SAN JACINTO BOULEVARD
SUITE 1500
AUSTIN, TX 7870 1-4078
512-322-2506
EVAN.YOUNG@BAKERBOTTS.COM

